OFFICE OF INSPECTOR GENERAL



U.S. DEPARTMENT OF LABOR
OFFICE OF AUDIT




                              Performance Audit of
                         Strategic Partnership Program
                  Occupational Safety and Health Administration
                                 For the Period
                   January 1, 1995 through February 28, 2002




                                                        Report No. 05-02-007-10-001
                                                        Issued: September 30, 2002
                                     Table of Contents

SECTION                                                                                   PAGE


ACRONYMS/ABBREVIATIONS                                                                       ii


EXECUTIVE SUMMARY                                                                           iii


BACKGROUND                                                                                   1


PRINCIPAL CRITERIA                                                                           2


OBJECTIVES                                                                                   2


SCOPE AND METHODOLOGY                                                                        2


FINDINGS AND RECOMMENDATIONS

   I.     Although OSHA Has Succeeded in Increasing the Number of OSPs,
          Particularly in the Construction Industry, the Program Remains Small Overall,
          and Many Eligible Employers are Hesitant to Join                                   5

   II.    OSHA Must Ensure the Consistent Application of OSP Policies and Procedures,
          and Enforce Program Requirements                                                  11

   III.   Corroborating Information Would Help Ensure the Integrity of Reported LWDI
          Data, and Additional Quality Control Procedures are Needed To Make Certain
          OSP Performance Data are Accurate                                                 15

Exhibit A
       National Park Service Partnerships Lost Time Cases and LWDI Rates                    20

Appendix I
      Agency Comments                                                                       21




                                                i
         Acronyms/Abbreviations

ABC       Associated Builders and Contractors
AGC       Associated General Contractors
CEA       Construction Employers Association
CPL       Compliance Directive
DOI       Department of Interior
EMR       Experience Modification Rate
FIRM      Field Inspection Reference Manual
FY        Fiscal Year
GGNRA     Golden Gate National Recreation Area
JEA       Jacksonville Electric Authority
LTCR      Lost Time Case Rate
LTIR      Lost Time Incident Rate
LWDI      Lost Work Day Injury
NPS       National Park Service
OIG       Office of Inspector General
OSHA      Occupational Safety and Health Administration
OSP       OSHA Strategic Partnership
OSPP      OSHA Strategic Partnership Program
OWCP      Office of Workers Compensation Programs
PSIP      Problem Solving Initiative Project
RIPPSH    Roofing Industry Partnership Program for Safety and
            Health
SESAC     Steel Erectors Safety Association of Colorado
TED       Training and Education Directive
VPP       Voluntary Protection Program




                     ii
                                   Executive Summary

The objectives of our audit were to determine how effective the Occupational Safety and Heath
Administration (OSHA) was in establishing OSHA Strategic Partnerships (OSPs) through its
outreach efforts, and if OSPs were making an impact in improving safety and health conditions
in the workplace.

In the mid 1990’s, OSHA refocused its way of conducting business from traditional enforcement
interventions, to more cooperative voluntary efforts between employers, workers, and OSHA.
The OSP program was part of this shift in strategy to more cooperative assistance. Although
OSPs have been encouraged, and have grown to a total of 159 in February 2002, they continue to
represent a small portion of OSHA’s total cooperative assistance program. Although we
identified examples of partnership successes, we found that:

   •   Despite OSHA’s outreach efforts, the OSP program is having a limited national impact
       because of the relatively few partnerships and participating employers.

   •   OSHA has been inconsistent in the application of OSP policies and procedures, data
       collection, and enforcement of the program requirements.

   •   OHSA has not obtained corroborating information that would help ensure the integrity of
       reported Lost Work Day Injury (LWDI) data.

In order to more fully realize the potential benefits of the OSP program, we recommend that the
Assistant Secretary for OSHA:

   •   Refocus existing outreach efforts and develop specific strategies to enlist more employers
       so that OSPs can become a more prominent part of OSHA’s cooperative program;
   •   Ensure partnership policies and procedures are effectively communicated to all area and
       field offices, and consistently applied in negotiating partnerships;
   •   Enforce requirement that program evaluation reports be completed yearly for all
       partnerships;
   •   Ensure verification inspections are performed as required;
   •   Share encouraging preliminary results of the OSP program with potential OSP
       participating employers;
   •   Explore procedures for obtaining information to corroborate LWDI information supplied
       by all partnerships as part of the program evaluation reports; and
   •   Correct and update the OSP log information, and transfer information to a database
       system.

   OSHA generally concurred with our recommendations and agreed to implement them.
   However, OSHA did express concern about forcing the expansion of the OSP to gain a
   critical mass. Excerpts from OSHA’s response have been incorporated into appropriate
   sections of the report, along with our comments. The response is also included in its entirety
   as Appendix I of the report.



                                               iii
                                       BACKGROUND

OSHA’s primary mission is to ensure safe and healthful working conditions for all workers, and
its strategic goal for accomplishing this mission is to have fewer workplace hazards, injuries,
illnesses, and fatalities. To achieve this goal, OSHA uses a variety of strategies including rule
making, enforcement, compliance assistance, and outreach and training to address the most
prevalent workplace hazards that the agency targets.

In recent years, the agency has continued efforts to expand its compliance assistance programs.
In the mid 1990’s, the Problem Solving Initiative was introduced as a disciplined technique for
Area Offices to achieve measurable results in a short time frame, in terms of lives saved and
injuries and illnesses averted. These Problem Solving Initiatives evolved into a formalized
OSHA Strategic Partnership (OSP) for Worker Safety and Health in November 1998 with the
issuance of Directive TED 8-0.2. OSHA reorganized Area Offices as a part of a new direction
from one of adversarial and confrontational relationships with employers to one of cooperative
efforts between employers, workers, and government.

Today, the Compliance Assistance Program includes the Consultation Program, Voluntary
Protection Program (VPP), and cooperative programs such as OSHA Strategic Partnerships
(OSPs). The Consultation Program provides onsite assistance to small employers. The VPP
recognizes exemplary safety and health worksites. The OSPs encourage, assist, and recognize
employers’ commitment to improve worker safety and health.

There are two types of OSPs, comprehensive and limited. Comprehensive partnerships require
each participating employer’s commitment to implement an effective safety and health program.
A comprehensive partnership must address in writing core elements of situation analysis,
identification of partners, goals, measurement system, safety and health programs, worker
involvement/rights, stakeholder involvement, OSHA incentives, verification procedures, OSHA
inspections, program evaluation, leveraging, and termination language. Partnerships that
successfully pass verification inspections will have their worksites removed from OSHA’s
programmed inspection list for 12 months. However, these worksites remain subject to OSHA
inspections in cases of employee complaints, workplace injuries, or fatalities.

When a potential partnership is unable and/or unwilling to address in writing all the core
elements required for a comprehensive partnership, the employers may agree to a limited
partnership with fewer core elements. However, all limited partnerships must contain the core
element of OSHA inspections. Limited partnerships must follow the Proposal, Review and
Approval process and the Information Collection and Time Reporting instructions.

Verification inspections are performed by OSHA to ensure that partnering employers in a
comprehensive OSP are meeting their obligations to provide safe and healthful working
environments, develop and operate effective worksite safety and health programs, and comply
with OSHA regulations. Annual program evaluations are performed by OSHA to determine if
the partnership needs to be modified or discontinued, or has potential for national
implementation. These annual evaluations describe the impact of the partnership in terms of




                                                1
improvements to baseline measures, number of sites and employees affected, and other possible
successes.

PRINCIPAL CRITERIA

   •   OSHA Strategic Plan, pages 1-8, and Appendix B, C, and D

   •   OSHA Directives, TED 8-0.2, OSHA Strategic Partnerships for Worker Safety and Health

   •   Guidance on Problem Solving Initiative

   •   OSHA Instruction CPL. 2.103, Field Inspection Reference Manual (FIRM)

OBJECTIVES

The objectives of our audit were to determine how effective OSHA was in establishing the OSPs
through its outreach efforts, and if OSPs were making an impact in improving safety and health
conditions in the workplace.

SCOPE AND METHODOLOGY

Our audit was conducted at the OSHA National Office, Regional Offices, and 10 Area Offices
via onsite reviews, faxes, telephone communications, and emails. For our audit period,
January 1, 1995 through February 28, 2002, 12 partnerships were selected using a judgmental
sample from the universe of 159 partnerships. In selecting partnerships for onsite reviews,
priority was given to partnerships that had received an evaluation, or were in operation for a
sufficient period of time to warrant an evaluation review - typically 2 years or longer.

The following 12 partnerships were selected:

                                   Strategic Partnership Program
                                                                      OSHA
                         Partnership                     Regional Office   Area Office
   RIPPSH *                                              National Office    -------------
   NPS Cape Cod National Seashore                        Boston             South Boston
   NPS National Capital Parks Central                    Philadelphia       Baltimore/DC
   Philadelphia TV Tower                                 Philadelphia       Philadelphia
   JEA/OSHA                                              Atlanta            Jacksonville
   CEA/Cleveland Building Trades                         Chicago            Cleveland
   San Antonio AGC SHARE                                 Dallas             Austin
   PRIDE                                                 Kansas City        St. Louis
   SESAC *                                               Denver             Denver
   Cripple Creek **                                      Denver             Englewood
   NPS Golden Gate National Recreation Area              San Francisco      --------------
   Idaho Construction Targeting & Partnership Project*   Seattle            Boise
  * Originally Problem Solving Initiative Project
 ** Limited Partnership



                                                    2
We interviewed OSHA officials at the National, Regional, and Area Offices to obtain operational
information about the Partnership program, and to evaluate the effectiveness of OSHA’s ability
to establish OSPs through outreach efforts. For a more detailed assessment, we divided the 159
partnerships among the industries OSHA identified as being most hazardous (construction,
shipyard, food processing, nursing home, and logging). Since most partnerships were in
construction, we also determined the percentage of the construction industry partnerships that
only admitted employers who attained a strong safety program, and a Lost Workday Injury
(LWDI) rate below the industry average.

We interviewed 40 employers to determine why they decided to participate in the OSP program
and to determine if removal from programmed inspections was a factor in their decision to
participate in the program. These 40 employers were selected on a judgmental basis from the
universe of 140 employers in the 9 private sector partnerships that contained more than one
employer participant. (The Federal National Park Service Partnerships were excluded from this
sample.) The table below represents a breakout of the nine private sector partnerships and how
many employers were interviewed from each partnership.

                               Strategic Partnership Program
                   Partnership              Employers      Selected For Interview
         RIPPSH                                 19                   5
         Philadelphia TV Tower                   6                   4
         JEA                                     2                   1
         CEA Cleveland Building Trades          26                   5
         San Antonio AGC                         7                   5
         PRIDE                                   5                   5
         SESAC                                  46                   5
         Cripple Creek Casino                    7                   5
         Idaho Construction                     22                   5

We examined each comprehensive partnership agreement along with the respective verification
inspection reports and annual program evaluation reports to determine if the requirements of
OSHA Directive TED 8-0.2 were being met. All of the agreements we reviewed were
comprehensive partnerships, except Cripple Creek Casino, which was a limited partnership
agreement and therefore not required to meet all the core elements set forth in OSHA Directive
TED 8-0.2.

We assessed OSHA’s overall management controls, and particularly those controls governing
OSP program operations and validity and reliability of data to determine the nature and extent of
testing needed to satisfy our audit objective, not to provide assurance on the internal controls;
therefore, we do not provide any such assurances. OSP program operations are governed by
policies and procedures contained in OSHA Directive TED 8-0.2, which served as our primary
criteria. In addition, we relied on information supplied by OSHA National Office personnel to
determine the number of partnerships, types, composition and number of employers, and other
partnership characteristics as a basis for determining the scope of our testing. The results of our
tests are contained in the Findings and Recommendations section of the report.



                                                 3
We reviewed annual program evaluation reports for each partnership to determine if the
partnerships were having a positive impact. We compared reported injury rates before the
partnerships began with reported injury rates in the first and second years (if data were available
for the second year) after the partnerships began. Five partnerships had insufficient data for our
analysis. One partnership (JEA) only had data for 25 of its 222 contractors. In another example
(CEA Cleveland), OSHA officials informed us that a partnership completed its evaluation after
the completion of our fieldwork. See Table 3 in Findings and Recommendations section of the
report for the analysis of the four private industry partnerships that reported sufficient data.

We verified the accuracy of injury rates reported for the NPS partnerships by comparing these
statistics against OWCP data. Currently OSHA has partnerships with the following National
Parks:

                 Cape Cod               Sleeping Bear Dunes        NCP Central
                 Fire Island            Cape Hatteras              Rock Creek
                 Isle Royale            Golden Gate                Yosemite
                 Padre Island           Yellowstone

Our audit was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States.

Our fieldwork was conducted from June 2001 through April 2002.




                                                 4
                                 FINDINGS AND RECOMMENDATIONS

The objectives of our audit were to determine how effective OSHA was in establishing OSHA
Strategic Partnerships (OSPs) through its outreach efforts, and if OSPs were making an impact in
improving safety and health conditions in the workplace. Although we identified examples of
OSP successes, we concluded that:

       •   Despite OSHA’s outreach efforts, the OSP program remains small overall, and many
           eligible employers are hesitant to join.

       •   OSHA has been inconsistent in the application of OSP policies and procedures, data
           collection, and enforcement of the program requirements.

       •   OHSA has not obtained corroborating information that would help ensure the integrity of
           reported LWDI data.

I.         Although OSHA Has Succeeded in Increasing the Number of OSPs, Particularly in
           the Construction Industry, the Program Remains Small Overall, and Many Eligible
           Employers Are Hesitant to Join

With the passage of the Government Performance and Results Act of 1993, OSHA established
three agencywide strategic goals related to improving workplace safety and health. The first
goal, in particular, is to improve workplace safety and health for all workers as evidenced by
fewer hazards, reduced exposures, and fewer illnesses, injuries, and fatalities. Under this
strategic goal, OSHA’s outcome goal is to reduce the number of worker injuries, illnesses, and
fatalities by focusing nationwide attention and Agency resources on the most prevalent types of
workplace injuries and illnesses, the most hazardous industries, and the most hazardous
workplaces.

OSHA’s FY 2001 Annual Plan identified five industries characterized by high hazard
workplaces, namely, shipyard, food processing, nursing home, logging, and construction
industries. OSHA established a goal of 15 percent reduction of injuries and illnesses for these
selected industries. 1 One of the strategies developed by OSHA to achieve this goal was to
develop partnerships and other cooperative efforts with the occupational safety and health
community to identify and address significant workplace hazards in those industries targeted in
OSHA’s performance goals.

OSHA has steadily expanded its outreach and recruitment of employers for OSPs since the
program’s inceptio n in November 1998. 2 As a result, the number of partnerships has increased
from 66 in March 2000 to 111 in February 2001, and to 159 in February 2002. Although the
percentage of growth in partnerships during the past 2 years is significant, the total number of
employers participating in the partnerships is very small compared to the total number of
potentially eligible employers nationwide. As a result, the direct benefits of reduced injury rates
1
    OSHA subsequently amended its goal to reduce injuries and illnesses by 7 percent in five high hazard industries.
2
    Problem Solving Initiative Projects, which started in 1995, are the forerunners of the OSP program and are
    subsequently governed by the OSP directives .


                                                            5
experienced by the partnerships shown in Tables 2 and 5 (pages 8 and 20, respectively) have
been limited to the few participating employer worksites.

For example, 101 of the 159 partnerships are in the construction industry. According to the
OSHA log maintained by the National Office, these partnerships cover 7,895 employers.
However, Bureau of Labor Statistics data for calendar year 2000 shows there were
approximately 755,000 construction employers nationwide, which indicates that partnership
employers in this industry represent less than 2 percent of construction employers throughout the
country. This small number of partnership employers indicates the OSPs can only have a limited
direct impact on workplace safety and health nationwide, and the current rate of growth in the
partnerships makes it unlikely this will change in the near term.

Although partnerships in the construction industry have been growing, OSHA has had less
success in the other three hazardous industries shown below in Table 1. Excluding logging,
which is no longer a target industry due to significant declines in the lost workday injury rate,
there was a total of 14 partnerships in the other 3 hazard industries (shipyard, food processing,
and nursing home). This represents less than 10 percent of the 159 partnerships in existence as
of February 2002. OSHA established only 41 partnerships in all remaining industries.

Overall, the total number of partnerships indicates the OSP program cannot be considered a
major factor in the national reduction of workplace injuries and illnesses. Large-scale benefits
cannot be achieved through OSPs until OSHA is able to significantly increase the number of
participating employers.


      Table 1: OSHA Strategic
            Partnerships                                OSHA Strategic Partnerships
          February 2002
                                                                                  Construction
       Industry           Number
Construction                    101                                               Shipping
Shipyard                          3                                               Food Processing
Food Processing                   6
                                                                                  Nursing Home
Nursing Home                      5
Logging                           3                                               Logging
All Other Industries             41                                               All Other Indusries
       Total *                  159
* Based on the OSP Log of opened/inactive partnerships during our audit period.

                                OSHA’s Partnership Outreach Efforts

OSP agreements can be developed at the National, Regional or Area Offices. However, most
OSP agreements developed during our audit period were developed at the National and Area
Offices. We contacted and gathered information at nine Regional Offices to determine their
levels of involvement in the OSP program. We found that Regional Office involvement varies
from almost no involvement in three regions, to limited involvement in six other regions. The
National Office outreach effort has been focused on the National Trade Associations. Because



                                                    6
of this effort, OSP agreements have been formalized for organizations such as ABC (Associated
Builders and Contractors, Inc.).

Local Area Offices promote OSP agreements during training seminars, safety council meetings,
presentations and inspection closing conferences. The Area Offices also use National and
Regional newsletters as well as the OSHA web site to promote the agreements. OSHA Region 3
contacts employers who have unsuccessfully applied for the Voluntary Protection Program and
explains the benefits of the OSP program.

OSHA has also developed OSP agreements that recognize construction employers with good
safety records. This maximizes OSHA’s impact on workplace safety and health with minimum
resources expended, and provides the agency with operational workplace safety information it
otherwise would not obtain. OSHA forged partnerships with major construction trade
associations linked by a national or regional network of local affiliates. These OSPs accept into
their partnership only employers who attained the highest status for having a strong safety
program, and a Lost Workday Injury (LWDI) rate below the industry average. JEA/OSHA,
CEA/Cleveland Building Trades, and PRIDE are examples of this type of partnership. OSHA
conducts verification inspections of a sample of partnership employers to confirm they are
complying with the conditions of their safety and health program.

              Some Partnership Successes, But More Complete Data are Needed

In order to gauge the effectiveness of OSPs in reducing the LWDI rate, we attempted to examine
program evaluation reports for nine private sector industry partnerships chosen in our sample.
However, we determined that insufficient information was available for five of these nine
partnerships. For example, the reported data for the Philadelphia TV Tower partnership showed
there were no injuries or fatalities for the year following the partnership, but failed to show data
for the baseline period. In another example, the evaluation report for the JEA/OSHA partnership
included loss time incidence rate (LTIR) data for only 25 of its 222 contractors. This incomplete
data covered only 11 percent of partnership contractors. We considered the data in each of these
cases inadequate for our evaluation purposes.

Where information was available, we noted successes. We determined the baseline period for the
partnerships, and compared the LWDI rate in the baseline period with subsequent years. As
shown in Table 2 on the next page, the LWDI rates dropped significantly for three of four
partnerships after the first full year of operation. One partnership recorded a 1- year
improvement of more than 47 percent, while two others improved more than 20 percent. The
remaining partnership had an increase of 22.7 percent in its LWDI rate in the year following the
baseline period.




                                                 7
                         TABLE 2: PRE- AND POST-PARTNERSHIP INJURY RATES
                                Baseline        Partnership Year One    Partnership Year Two
                 Measure-                                              Improve-                     Improve
 Partnership      ment       Period       Rate    Period       Rate      ment     Period   Rate      -ment
                             May 95               May 98                          May 99
SESAC *          LTCR                     5.3                   4.1     22.6%               4.1.     None
                             Apr 98               Apr 99                          Apr 00
                             Nov 98               Nov 99                          Nov 00    Not
Cripple Creek    LWDI                     5.3                   4.2     20.7%
                             Oct 99               Oct 00                          Oct 01   Avail.
San Antonio                                       Feb 00                          Feb 01    Not
                 LWDI          1998       3.8                   2.0     47.4%
AGC                                               Jan 01                          Jan 02   Avail.
                              Jan 96              Jan 97                          Jan 98    Not
RIPPSH*          LWDI                    7.5**                 9.7**    -22.7%
                              Dec 96              Dec 97                          Dec 98   Avail.

   *  Originally a Problem Solving Initiative Project (PSIP)
   ** Average LWDI rate for member employers



   Although limited, this information provides encouraging evidence of the value of the
   partnerships. It also points out the need for complete and accurate data, and timely evaluation
   reporting. Table 2 represents data reported by only four of the private industry partnerships
   selected for review, since the five remaining private industry partnerships did not have complete
   injury data available for a comparative analysis. Only one of the partnerships reported LWDI
   rate information in the second year of operation. We also excluded workplace injury and illness
   information for three park service partnerships because we question the accuracy of LWDI rate
   information included in two of three program evaluation reports (see Finding III).

                                      Employer Perspective on OSP

   Based on our interviews with OSHA Area and Regional Office staff, and Construction Trade
   Association Directors, potential partnership employers were concerned that there were too few
   advantages for joining partnerships. Depending on their size, and whether or not they joined a
   partnership, employers generally are subject to either a verification inspection or a targeted
   programmed inspection. For example, a Regional OSP Coordinator stated that smaller
   construction companies do not think it is an advantage to enter into a partnership agreement
   because, under normal conditions, there is little likelihood they will be chosen for a targeted
   inspection. However, as a member of a partnership, they greatly increase their chances for a
   verification inspection. In addition, other potential employers simply do not believe there are
   adequate incentives to join partnerships.

   In addition to our interviews with OSHA staff, we interviewed 40 employers who were
   participants in the OSP program and asked them to give their main reasons for joining the
   Program. As shown in Table 3 on the next page, employers had various reasons for
   participating. The most common reasons given by participating employers were to have a safer
   working environment and establish a better working relationship with OSHA.




                                                       8
                            Table 3: OSHA Strategic Pa rtnerships
                             Employers’ Reason for Participation
                                                               Number of
         Reason                                                Employers      Percentage
         Have a safer working environment                           15             38
         Establish a better working relationship with OSHA           9             22
         Education in Safety Manners                                 6             15
         Recognition                                                 4             10
         Company was approached by OSHA                              3              8
         Company wanted OSHA to visit less often                     2              5
         Validation of company safety record                         1              2
                        Total                                       40           100 %

We followed up with these employers and asked if exemption from programmed inspections was
a factor in their decisions to participate in the OSP program. Forty- five percent of these
employers (18 of 40) cited the possibility of being removed from OSHA’s programmed
inspection list for 12 months following a successful verification inspection as a factor in their
decisions to join.

We believe that although OSHA has been steadily expanding participation in the OSP since the
program inception in November 1998, OSHA must do more if the program is to reach a critical
mass necessary to make a significant impact on national workplace safety and health.

                                      Conclusions

Partnerships offer advantages to OSHA by providing a more precise measure of its direct impact
on specific employer groups/associations, more specific “before and after” baseline data to track
performance, and more safety/health workplace related information. These are key advantages
over some of its other intervention activities (such as high injury/illness notification letters),
which offer less tangible direct evidence of OSHA’s influence.

We found several examples of partnerships that showed improvements in the employers’ safety
and health programs. However, even with OSHA’s increased efforts, the total number of
partnerships remains small. Between March 2000 and February 2002, only 93 new partne rships
were established. This rate of growth indicates that partnerships as an intervention tool will
continue to have a relatively minor role in OSHA’s total cooperative program. The data show
that partnerships have a limited direct impact on achieving OSHA’s national strategic goal of
reducing injuries and illnesses.




                                                 9
Recommendations

In order to more fully realize the potential benefits of the OSP program, we recommend that the
Assistant Secretary for OSHA:

   •   Refocus existing outreach efforts and develop specific strategies to enlist more employers
       so that OSPs can become a more prominent part of OSHA’s cooperative program in line
       with its strategic goals; and

   •   Share encouraging preliminary results of the OSP program with potential participating
       employers.

Agency Response

   •   OSHA agrees with the OIG that Strategic Partnerships (OSP) provide great opportunities
       for success in reducing fatalities, injuries, and illnesses in the workplace. As OSHA
       redefines its strategic goals, OSHA will continue to actively solicit cooperative ventures
       with employers and explore new opportunities to expand program participation.
       However, OSHA never designed or intended the OSPP to be a program for all employers,
       but rather one option for employers willing to work cooperatively with OSHA. While
       OSHA will continue to seek opportunities to advertise the benefits of the OSPP program
       and expand employer participation, OSHA is reluctant to agree with the underlying
       premise of this OIG recommendation that OSHA must build a "critical mass" of OSPs for
       the program to make a significant impact on workplace safety and health.

   •   OSHA agrees with the OIG that it is important to increase awareness of the successes
       employers and industries achieve through participation in the OSPP as well as other
       cooperative programs. OSHA will continue to pursue every opportunity to highlight this
       program among employers who might join OSHA in a cooperative partnership.

OIG Conclusion

Clearly, the OSP program will have greater impact when more employers participate. We agree
that the program is not suited for every employer, and OSHA must exercise its discretion in
developing its strategic workplan.

Based on OHSA’s agreement to actively solicit cooperative ventures with employers, explore
new opportunities to expand OSP program participation, and to highlight the program with
employers, we consider the above recommendations to be resolved. To close these
recommendations, OSHA needs to provide us with the following:

   •   Followup information of OSHA’s redefined strategic goals, the role of the OSP program
       and its level of success in meeting the targeted performance measures, and

   •   Documentation that OSHA is highlighting the positive preliminary results of the OSP
       program among employers who might join OSHA in a cooperative partnership.


                                               10
II.    OSHA Must Ensure the Consistent Application of OSP Policies and Procedures,
       and Enforce Program Requirements

OSHA has not fully complied with its established policies and procedures for the development,
approval, and impleme ntation of OSHA Strategic Partnerships. As a result, OSHA management
is unable to accurately measure the success of the program because of flawed partnership
agreements, incomplete performance data, and inconsistent annual program evaluations.

OSHA Directive TED 8-0.2 titled “OSHA Strategic Partnerships for Worker Safety and
Health,” describes two classifications of partnerships: comprehensive and limited. This
Directive contains 13 core elements that must be included in comprehensive OSPs and the
Problem Solving Initiative Agreements that were still active after November 13, 1998. The 13
core elements are:

       •       Situation Analysis that determines if a particular situation lends itself to an OSP;
       •       Identification of partners;
       •       Clearly defined goal statement;
       •       Results- focused measurement system;
       •       Effective workplace safety and health programs;
       •       Employee involvement and employee rights;
       •       Stakeholder involvement of those whose input and participation are important to
               the program’s success;
       •       OSHA incentives;
       •       Verification inspections by OSHA to ensure that employers are upholding their
               responsibilities under the Partnership;
       •       OSHA inspections and investigations in accordance with agency procedures;
       •       Program evaluation to determine if the program needs to be modified or
               discontinued or has potential for national implementation;
       •       Leveraging component to be determined after an analysis of possible leveraging
               opportunities; and
       •       Termination conditions.

We reviewed 11 comprehensive OSP agreements to determine if they complied with the core
requirements. We found that four agreements did not contain all the core elements, OSHA did
not perform the required verification inspections for one partnership, and four partnership
program evaluations were performed late, not performed at all, or failed to address the required
items set forth in Appendix C of the OSHA Directive.

Four comprehensive partnership agreements lacked one of the required core elements. One
agreement (JEA) lacked the core element requiring OSHA verification inspections. The
remaining three agreements (Cape Cod Seashore, National Capital Parks Central, and Golden
Gate National Recreation Area National Park Service) lacked the core element requiring an
annual program evaluation.




                                                11
Although the requirement was included in the agreement, OSHA did not perform verification
inspections for the SESAC partnership. In this agreement, OSHA planned to perform
approximately five verification inspections of SESAC contractors per year to validate whether
employers were upholding the ir program responsibilities. SESAC contractors would be assessed
against the 12 criteria set forth in the agreement during these inspections. Instead, OSHA
performed several inspections resulting from complaints, referrals, accidents, and fatalities, but
none of these qualified as a verification inspection. We reviewed 15 inspections reports prepared
during the period May 1998 through April 2001 to determine if OSHA had assessed the
contractor against the criteria set forth in the SESAC agreement. None of these inspection
reports addressed all 12 of the criteria set forth in the SESAC agreements, and thus could
not be considered a verification inspection. For example, five of the reports addressed one
element, one report addressed two elements, and nine reports failed to cover any of the elements.
We found no indication that any of the reports addressed such elements as: compliance with
SESAC program guidelines, abatement activity, periodic self- inspections, supervisor training,
employee orientation, fall protection, safety program reviews, and annual injury record analysis.

At the time of our visit to the OSHA area office, we also found that a verification inspection had
not been completed for the Philadelphia TV Tower partnership agreement. Because of a
miscommunication between the OSHA Area Office and the contractor, by the time OSHA
arrived to perform the planned inspection, the contractor had already completed the work and left
the site. Although OSHA amended the agreement to prevent a similar misunderstanding in the
future, OSHA had not attempted to complete another verification inspection to meet the annual
requirement at the time of our field visit.

In summary, we believe that nonconformance with OSP program requirements is due in part to
the OSHA staff’s lack of familiarity with the OSHA OSP Directive.

                      Program Requirements Should Be Enforced

The program evaluation reports for four partnerships (National Capital Parks Central,
Construction Employers Association (CEA), San Antonio Associated General Contractors
(AGC), and Golden Gate National Recreation Area) were either performed late, not performed at
all, or failed to address the required items set forth in the OSHA OSP Directive.

OSHA requires that the program evaluations be performed normally at 1-year intervals.
However, approximately 2½ years elapsed before OSHA completed the first program evaluation
of the National Capital Parks Central partnership.

The CEA/Cleveland Building Partnership entity had not completed their first evaluation of the
CEA partnership at the time of our field visit. The CEA partnership was formed in April 2000
and normally should have performed their first program evaluation in April 2001.

The initial program evaluation report of the San Antonio AGC partnership conducted by the
OSHA Austin Area Office did not address some of the required items. The missing items
included the LWDI averages for all partnership work sites, significant changes in the partnership
over the past year, partnership challenges and concerns, plans to improve the partnership, and the



                                                12
recommendation whether the partnership be continued or terminated. However, subsequent to
our field visit, Area Office officials informed us that they submitted supplemental information
addressing these missing elements.

OSHA performed two onsite evaluations of the Golden Gate National Park Service partnership
to provide technical assistance to the partnership. However, these evaluations did not address all
the required reporting elements for the annual program evaluation.

We believe that nonconformance with OSP program requirements is due in part to theOSHA
staff’s lack of familiarity with OSHA Directive TED 8-0.2. In our interviews at three Area
Offices we found OSHA staff was not fully aware of this Directive, and in one case the staff was
unable to distinguish between comprehensive and limited partnerships.

                                     Conclusion

In summary, we believe that OSHA has not provided appropriate training to area and regional
offices to ensure staffs are sufficient ly knowledgeable and have a clear understanding of the
requirements set forth in OPS Directive TED 8-0.2. Consequently, we found that OSHA did not
uniformly enforce key provisions of the program, particularly those regarding annual program
evaluation reports and verification inspections.

Recommendations

We recommend that the Assistant Secretary for OSHA:

   •   Provide appropriate training to Area and Regional Offices to ensure staffs understand the
       requirements set forth in OSP Directive TED 8-0.2;

   •   Ensure consistent application of the policies in negotiating partnership agreements;

   •   Enforce the requirement that program evaluation reports be completed yearly for all
       partnerships; and

   •   Ensure that verification inspections are performed as required.

Agency Comments

   •   OSHA believes that it has communicated the program requirements of the OSPP
       throughout the agency. While OSHA has questions about some of the implications in the
       audit report regarding program awareness in the agency, OSHA does acknowledge the
       need to further enhance program training for agency personnel. To that end, the agency
       is planning on holding an OSHA Strategic Partnership Conference in FY 2003.




                                                13
   •   OSHA agrees with the OIG that it is important to consistently apply existing policies in
       negotiating partnership agreements and accepts this recommendation. OSHA is in the
       process of developing a comprehensive report covering the OSP evaluations received
       through September 2002. The report should be available by the third quarter of FY 2003.

   •   OSHA is currently in the process of tracking and reviewing partnership evaluation
       reports. This oversight activity includes a thorough review of each evaluation and the
       entry of evaluation results into a database for future feedback to OSP developers. A
       report summarizing OSPP results to-date will be generated and provided to the OIG when
       it is available.

   •   In FY 2003, OSHA intends to implement data collection procedures to track partnership
       verification inspections. To the extent that verification inspections are required under the
       OSPP, OSHA will ensure that they are carried out.

OIG Conclusion

Based on OSHA’s ongoing and planned actions, we consider the above recommendations to be
resolved. To close these recommendations, OSHA needs to provide us with the following:

   •   Documentation that appropriate training was provided during the FY 2003 OSHA
       Strategic Partnership Conference,

   •   Documentation that demonstrates the consistent application of the policies in negotiating
       partnership agreements,

   •   Copy of the report when completed, and

   •   Documentation that appropriate data collection procedures have been implemented.




                                                14
III.   Corroborating Information Would Help Ensure the Integrity of Reported LWDI
       Data, and Additional Quality Control Procedures Are Needed to Make Certain OSP
       Performance Data are Accurate

OSHA gathers injury data from partnership employers to demonstrate whether the partnerships
are improving workplace safety and health for their workers as evidenced by fewer hazards,
reduced exposures, and fewer illnesses, injuries, and fatalities. The injury data gathered must be
accurate for OSHA to make informed decisions as to the level of success of each particular
partnership, and the OSP program in general.

We found that supplemental information along with partnership program evaluation reports
would help ensure the reliability of the LWDI rates and related workplace injury and illness data.
Our audit also disclosed several instances of erroneous information that inaccurately reflected
OSP program performance and needed correction. In addition, we determined that 20 percent
(2 of 10) of the National Park Service (NPS) partnerships included in our examination reported
questionable LWDI information. One NPS partnership did not report any LWDI information.

                      Corroborating Information Helps Data Validity

Program evaluation reports are a principal source of information used to measure the success of
partnerships. These reports contain an assortment of information taken from employer records.
The program evaluation reports include data covering the partnership employer’s improvements
to baseline measures, number of sites and employees effected, improvements in injury and
illness and lost-workday average rates as well as any other data measurements being collected by
the partnership. Since much of this information is internal to the employers, supplemental data
from outside parties such as the employer’s worker compensation insurance carrier, or the state
worker compensation office, would provide an additional degree of reliability to the program
evaluation reports. Several OSHA offices have required the submission of such supplemental
information in the partnership agreements.

Our attempts to corroborate such injury data as the LWDI rate for private sector employer
partnerships proved to be problematic. Prior to starting our fieldwork, we contacted state
workers’ compensation officials in several states where the selected employer partnerships were
located to obtain information on the employer LWDI rates. The majority of the state officials
replied that we would need to obtain written releases from each employer authorizing disclosure
of the data. Furthermore, the officials informed us that they do not keep track of lost workday
injuries for covered employees; instead, they only record the number of injuries. One state
official suggested the best method to obtain lost workday information would be to contact the
private sector employer’s workers compensation carrier. As an alternative, we examined
OSHA’s approach to assure the accuracy of the injury and illness statistics supplied by
partnership employers.

We found that three partnerships in our sample required partnership employers to submit their
Experience Modification Rate (EMR) and LWDI rates from their respective workers
compensation insurance carriers. However, we found evidence in only one of the partnership



                                                15
files that this information was supplied. We believe the OSP agreements established by each
OSHA Office should include provisions requiring such supplemental information

                              Incomplete OSP Log

We examined the OSP log maintained by the National Office, which purportedly lists all OSP
partnerships and records the number of participating employers. Our examination showed the
log was incomplete in many respects, and the information recorded contained numerous errors.

For example, by consolidating and verifying information between the National Office, Area
Offices and Field Offices, we determined the existence of 101 construction partnerships.
However, the OSHA log was incomplete and contained only 41 construction partnerships that
listed the number of employers. We further tested 20 of these partnerships to determine the
number of participating employers. The OSHA log listed 5,097 employers, yet our tabulation
showed only 107 employers based on information gathered during our field visits and subsequent
information from the National Office. In one case the OSHA log recorded 1,200 employers for a
partnership, while there were only 12, and in several cases the log showed 300 employers when
there were no employers participating in the partnership.

This information significantly misrepresents OSP coverage and provides management with a
distorted representation of the program’s accomplishments. Although we cannot adequately
explain the reason for the data discrepancies, based on our review, it appears that estimates were
initially recorded in the log in some instances, and in other cases, the log was not updated timely
with current information. We believe a contributing factor is that the log is maintained on a PC
based spreadsheet rather than a data base system with integrated quality control features and
validity checks.

                Questionable NPS Partnership Injury and Illness Data

We compared the number of lost time cases and LWDI rates reported by 10 of the National
Parks Service partnerships against OWCP reports of lost time cases for each NPS partnership in
FYs 1998 through 2000. We then computed the LWDI rate based on the OWCP reported cases.
Although OSHA currently has partnership agreements with 11 of the National Parks, one park
(Yellowstone National Park) did not report LWDI data, and thus was not included in our
examination.

The reported lost workday cases that were reported by eight NPSs for most years closely
matched the worker compensation information we obtained from OWCP. (See Exhibit A.)
However, injury data reported by two of the NPS partnerships (National Capital Parks Central
and Golden Gate National Recreation Area) are suspect, since the data significantly disagree
with OWCP records for each of the 3 years we sampled. The variances in the number of cases
were so notable that they cannot be explained simply by timing differences in reporting or
categorizing injuries. In three successive years, these two parks reported between 20 percent and
72 percent fewer cases than recorded by OWCP. Table 4 on the next page lists these differences.




                                                 16
       Table 4: Nation Park Service Partnerships Lost Time Cases and LWDI Rates
                                 Lost Time Cases          Lost Workday Injury
                      FY      Reported Actual * Reported             Actual **
                      1998        19          69         9.97         36.22
       Golden Gate 1999           16          43         8.66         23.27
                      2000        31          63        15.84         32.20
                      1998        81         139        20.71         35.54
       NCP Central 1999           76          95        19.43         24.30
                      2000        43          86        11.36         22.73

       * Actual lost time cases based on OWCP data
       ** Actual LWDI computed using OWCP lost time cases

Golden Gate National Recreation Area reported 19 lost time injury cases in FY 1998 which
translated into a lost time injury rate of 9.97. However, OWCP data showed there were 69 lost
time injuries, which raised the injury rate to 36.22 percent - more than 3 times the rate
originally reported.

The National Capital Parks Central reported 81 lost time injuries in FY 1998, which translated
into a lost workday injury rate of 20.71. However, OWCP data showed 139 injuries, which is
70 percent more than the number of injuries reported by National Capital Parks Central. The
corresponding LWDI based on OWCP data was 35.54.

Our further analysis showed that despite the questionable data submitted by the two NPS
partnerships, the recomputed average LWDI rate based on lost time cases for the 10 NPS
partnerships declined. Using the OWCP data, the recomputed LWDI rates for the 10 NPS
partnerships as a whole decreased from 20.09 in FY 1998 to 13.78 in FY 2000.

Although we cannot be certain of the cause of these differences, we note annual evaluation
reports for two of the NPS partnerships cited instances of accidents and/or injuries that were not
reported, and the lack of timely submission of accident and injury information. One evaluation
report completed for Cape Hatteras pointed out instances when supervisors did not designate
cases as lost workday cases correctly in NPS’ Safety Management Information System (SMIS).
An Evaluation Report completed for Cape Cod cited missing injury information and late
submissions of worker compensation CA-1 and CA-2 accident reports.

                                      Conclusion

We believe OSP information can be improved and made more reliable. Partnership program
evaluation reports contain useful data about employer workplace safety and health. The value of
this data can be improved with supplemental information from independent sources that will help
ensure the reasonableness and accuracy of this reported data. In the case of the National Park
Service, we believe that OWCP records are a viable source to help ensure the accuracy of the
LWDI rates reported by the parks. In addition, we found that effective internal controls were not
established over OSP log information to ensure its accuracy and reliability.


                                                17
Recommendations

We recommend that the Assistant Secretary for OSHA:

   •   Explore means for obtaining information to corroborate the LWDI information supplied
       by all partnerships as part of the program evaluation reports. For private sector
       employers, such information could include the EMR rates from employer worker
       compensation insurance carriers, and where possible and with the permission of the
       employer, the number of injuries from state worker compensation offices. For NPS
       partnerships, OWCP lost time cases for the parks can be obtained by OSHA, and should
       be compared to the number of cases reported by the parks.

   •   Correct and update the OSP log information currently maintained using a PC spreadsheet,
       and transfer the data to database management information system with proper quality
       control.

Agency Response

   •   OSHA acknowledges the intent of this OIG recommendation and shares its concern for
       improving the credibility of the OSPP through better data collection and data validation.
       However, OSHA does not believe that these specific recommendations are practical.
       Though OSHA does not agree with these specific OIG recommendations, the agency will
       continue to explore alternative means of securing information for use in program
       evaluation reports.

   •   Some of the data problems identified in the draft audit report reflect the fact that OSHA
       provided the OIG with the information requested, not the complete information tracked
       on the OSPP Log. Still, OSHA recognizes the need to expand its OSPP data reporting
       and tracking capabilities. OSHA has been working over the past 6 months to improve the
       existing log and believes the agency has made great strides in improving the nature and
       validity of the data collected. To the extent that funding is available, OSHA agrees to
       follow this OIG recommendation in upgrading its data tracking capabilities.

OIG Conclusion

OSHA’s agreement to examine alternative means of obtaining information that will be useful in
evaluating the performance of OSP program employers, and its agreement to upgrade its data
tracking system satisfies the intent of our recommendation. However, OSHA must take
reasonable measures to ensure the accuracy and validity of the critical information it obtains.
This is particularly important concerning injuries, injury rates and LWDI rates.

Our recommendations are resolved, but remain open until we receive documentation supporting
the actions taken.




                                               18
Specifically, OSHA needs to provide us with the following:

   •   Documentation of the corroborative information used to improve the credibility of the
       program evaluation reports, and

   •   Documentation of the improvements implemented to ensure that effective quality
       controls have been established over the accuracy and reliability of the OSP lo g
       information.




                                              19
                                                                        Exhibit A
                       Strategic Partnership Program
                  Occupational Safety and Health Agency
    National Park Service Partnerships Lost Time Cases and LWDI Rates

Table 5                  Lost Time Cases          Lost Workday Injury
                FY     Reported Actual *      Reported      Actual **
                1998       7          6         6.64           5.69
  Cape Cod      1999       3          6         2.61           5.23
                2000       5          4         4.26           3.41
                1998      11         16        10.31          14.99
Cape Hatteras   1999       6          4         6.37           4.25
                2000       7          7         7.01           7.01
                1998       5          4        10.38           8.30
 Fire Island    1999       3          3         5.99           5.99
                2000       2          0          3.7           0.00
                1998      19         69         9.97          36.22
Golden Gate     1999      16         43         8.66          23.27
                2000      31         63        15.84          32.20
                1998       2          3         3.39           5.09
 Isle Royale    1999       3          4         5.16           6.88
                2000       0          4           0            6.85
                1998      81        139        20.71          35.54
Nat’l Capitol
                1999      76         95        19.43          24.30
Park Central
                2000      43         86        11.36          22.73
                1998       9          5         3.88           2.15
Padre Island    1999       7          3         3.07           1.31
                2000       7          3         3.15           1.35
                1998      21         23        24.49          26.82
 Rock Creek     1999      17         19        18.75          20.96
                2000      15          9        19.01          11.41
                1998       5          9         7.62          13.72
Sleeping Bear
                1999       2          4         2.75           5.50
    Dunes
                2000       3          3         4.36           4.36
                1998      92         94        16.81          17.17
  Yosemite      1999     104        109        18.25          19.13
                2000      57         74        10.12          13.14
                1998     252        368        13.76          20.09
    Total       1999     237        290        12.78          15.64
                2000     170        253         9.26          13.78

 * Actual lost time cases based on OWCP data
 ** Actual LWDI computed using OWCP lost time cases




                                   20
                  Appendix I




AGENCY COMMENTS




      21
22
23
24
25
26
27
28
